CERTIFICATE OF COMPLIANCE
Case No. 19-1257
Caption: Mark Brnovich, Attorney General of
Arizona, et al. v. Democratic National
Committee, et al.
Case No. 19-1258
Caption: Arizona Republican Party, et al. v.
Democratic National Committee, et al.
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 7,966 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 20, 2021

dk!~IJ~
Howard Daniels
Record Press, Inc.

Sworn to before me on
January 20, 2021
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires pri 18, 2024

